("'4
\:',::::::1.
                   DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                           Office of Inspector General
                                                                                           Offices of Audit Services



                                                                                           Region VII
                                                                                           601 East 12th Street
                    ~~!)lJ 0 ·1   2008                                                     Room 284A
                                                                                           Kansas City. Missouri 64106




               Report Number: A-07-08-00259

               Mr. David Breuer

               Senior Vice President of Finance and Chief Financial Officer

               Noridian Mutual Insurance Company
               4510 13 th Avenue S.
               Fargo, North Dakota 58121-0001

               Dear Mr. Breuer:

               Enclosed is the U.S. Department ofRealth and Ruman Services (RRS), Office of Inspector
               General (OIG), final report entitled "Review of Pension Costs Claimed for Medicare
               Reimbursement by Noridian Mutual Insurance Company for Fiscal Years 1999 Through 2005."
               We will forward a copy of this report to the HHS action official noted on the following page for
               review and any action deemed necessary.

               The HHS action official will make final determination as to actions taken on all matters reported.
               We request that you respond to this official within 30 days from the date of this letter. Your
               response should present any comments or additional information that you believe may have a
               bearing on the final determination.

               Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.c. § 552, as amended by
               Public Law 104-231, OIG reports generally are made available to the public to the extent the
               information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
               will be posted on the Internet at http://oig.hhs.gov.

               If you have any questions or comments about this report, please do not hesitate to call me at
               (816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21 or
               through e-mail at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-08-00259
               in all correspondence.


                                                            Since~
                                                        q                                                   .
                                                            Patrie . Cogley
                                                            Regional Inspector General
                                                              for Audit Services


               Enclosure
Page 2 - Mr. David Breuer


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
 

             OFFICE OF 

        INSPECTOR GENERAL 





 REVIEW OF PENSION COSTS 

  CLAIMED FOR MEDICARE 

REIMBURSEMENT BY NORIDIAN 

MUTUAL INSURANCE COMPANY 

   FOR FISCAL YEARS 1999
 

       THROUGH 2005 





                     Daniel R. Levinson
 

                      Inspector General 


                       November 2008
 

                       A-07-08-00258
 

                    Office of Inspector General
                                        http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY


BACKGROUND

During our audit period, Noridian Mutual Insurance Company (Noridian) administered Medicare
Part A and Part B operations under cost reimbursement contracts with the Centers for Medicare
& Medicaid Services.

Medicare reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation'method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that Noridian claimed for
Medicare reimbursement for fiscal years (FY) 1999 through 2005.

SUMMARY OF FINDING

Noridian did not claim all pension costs that were allowable for Medicare reimbursement for
FYs 1999 through 2005 because it based its claim for Medicare reimbursement on improperly
computed CAS pension costs. Therefore, Noridian underclaimed $38,645 of allowable pension
costs.

RECOMMENDATIONS

We recommend that Noridian revise its Final Administrative Cost Proposals (FACP) to claim
allowable CAS pension costs of $38,645 for FYs 1999 through 2005. We also recommend that
Noridian claim future pension costs in accordance with Federal requirements and the Medicare
contracts.

AUDITEE COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations and
stated that it will revise its FACPs.

Noridian's comments are included in their entirety as Appendix B.




                                                1
                                       INTRODUCTION


BACKGROUND

Noridian

During our audit period, Noridian Mutual Insurance Company (Noridian) administered Medicare
Part A and Part B operations under cost reimbursement contracts with the Centers for Medicare
& Medicaid Services (CMS).

Medicare Reimbursement of Pension Costs

Medicare reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS pension costs and allocates a share
to Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

Federal Requirements

The Medicare contracts address the determination and allocation of pension costs. Appendix B,
section XVI of the contracts states: "The calculation of and accounting for pension costs
charged to this agreement/contract are governed by the Federal Acquisition Regulation and Cost
Accounting Standards 412 and 413."

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 regulates the determination and measurement of pension cost components. It also
regulates the assignment of pension costs to appropriate accounting periods.

CAS 413 regulates the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.




                                                1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that Noridian claimed for
Medicare reimbursement for FYs 1999 through 2005.

Scope

We reviewed pension costs that Noridian claimed for Medicare reimbursement on its Final
Administrative Cost Proposals (FACP) for FYs 1999 through 2005. Achieving the objective did
not require that we review Noridian's overall internal control structure. However, we did review
the internal controls related to the pension costs claimed for Medicare reimbursement to ensure
that the pension costs were allocable in accordance with the CAS and allowable in accordance
with the FAR.

We performed fieldwork at Noridian in Fargo, North Dakota, during August 2007.

Methodology

We identified Noridian's CAS pension costs for the total company and the Medicare segment.
We also determined the extent to which Noridian funded CAS pension costs with contributions
to the pension trust fund and accumulated prepayment credits. We based the calculations on
separately computed CAS pension costs for the Medicare segment and total company CAS
pension costs. The CMS Office of the Actuary calculated the allocable CAS pension costs based
on Noridian's historical practices and on the results of our segmentation review, "Review of
Medicare Contractor's Pension Segmentation Requirements at Noridian Mutual Insurance
Company for the Period January 1, 1998, to January 1, 2006" (A-07-08-00258). Appendix A
contains details on the pension costs and contributions.

In performing this review, we used information that Noridian's actuarial consulting firm
provided. The information included assets, actuarial liabilities, normal costs, contributions,
benefit payments, investment earnings, and administrative expenses. We examined Noridian's
accounting records, pension plan documents, annual pension plan actuarial valuation reports, and
Department of Labor/Internal Revenue Service Form 5500s.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                               2

                           FINDING AND RECOMMENDATION

ALLOWABLE PENSION COSTS NOT CLAIMED

Noridian did not claim all pension costs that were allowable for Medicare reimbursement for
FYs 1999 through 2005 because it based its claim for Medicare reimbursement on improperly
computed CAS pension costs. Specifically, Noridian did not claim $38,645 of pension costs that
were allowable for Medicare reimbursement for FYs 1999 through 2005.

For FYs 1999 through 2005, Noridian claimed pension costs of $16,230,921 for Medicare
reimbursement. We calculated the allowable costs based on separately computed CAS pension
costs for the Medicare segment and the total company. We determined that the allowable CAS
pension costs totaled $16,269,566. We compared allowable CAS pension costs with the pension
costs claimed on Noridian's FACPs, as shown in the table below.

                               Pension Cost Claimed Variance

                     Fiscal Year Per Audit    Per Noridian Difference

                         1999        $925,535     $873,990    $51,545
                        2000        1,231,977    1,081,801    150,176
                        2001        1,553,609    1,275,537    278,072
                        2002        2,019,921    2,062,281    (42,360)
                        2003        3,122,531    3,541,839   (419,308)
                        2004        3,495,166    3,491,485      3,681
                        2005        3,920,827    3,903,988     16,839
                        Total    $16,269,566 $16,230,921      $38,645

The Medicare contracts required Noridian to allocate or separately calculate CAS pension costs
for Medicare reimbursement. Noridian based its claim for Medicare reimbursement on
separately computed CAS pension costs. However, Noridian improperly computed those CAS
pension costs because Noridian misidentified the Medicare segment. As a result, Noridian
underclaimed $38,645 of allowable pension costs.

RECOMMENDATIONS

We recommend that Noridian revise its FACPs to claim allowable CAS pension costs of $38,645
for FYs 1999 through 2005. We also recommend that Noridian claim future pension costs in
accordance with Federal requirements and the Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations and
stated that it will revise its FACPs.

Noridian's comments are included in their entirety as Appendix B.




                                               3
APPENDIXES

                   NORIDIAN MUTUAL INSURANCE COMPANY                         APPENDIX A
                  STATEMENT OF ALLOWABLE PENSION COSTS                         Page 1 of5
                    FOR FISCAL YEARS 1999 THROUGH 2005




                                              Total         Other        Medicare
Date            DescriDtion                  ComDanv       Se!!ment      Se!!ment

1998     CY Allowable Pension Cost      1/                  $129,741      $698,584

 1999    Contributions                  2/   $3,728,000    $3,728,000           $0
9.00%    Discount for Interest          3/     (306,647)     (306,647)           0
1/1/99   Present Value Contributions    4/    3,421,353     3,421,353            0
         Prepayment Credit              5/    2,947,938     2,087,251      860,687
         Present Value of Funding       6/    6,369,291     5,508,604      860,687

1/1/99   CAS Funding Target         7/        2,947,938     2,087,251      860,687
         Percentage Funded          8/                        100.00%      100.00%
         Funded Pension Cost        9/                      2,087,251      860,687
         Allowable Interest        10/                              0            0
         Allocable Pension Cost    ill                      2,087,251      860,687
         Medicare LOB* Percentage 12/                           6.82%       94.76%
         CY Allowable Pension Cost 13/                        142,351      815,587

1999     FY Allowable Pension Cost     14/    $925,535      $139,199      $786,336




 2000    Contributions                       $2,440,000    $2,440,000            $0
9.00%    Discount for Interest                 (200,219)     (200,219)            0
1/1/00   Present Value Contributions          2,239,781     2,239,781             0
         Prepayment Credit                    3,034,379     1,800,485     1,233,894
         Present Value of Funding             5,274,160     4,040,266     1,233,894

1/1/00   CAS Funding Target                   3,034,379     1,800,485     1,233,894
         Percentage Funded                                    100.00%       100.00%
         Funded Pension Cost                                1,800,485     1,233,894
         Allowable Interest                                         0             0
         Allocable Pension Cost                             1,800,485,    1,233,894
         Medicare LOB* Percentage                               7.53%        96.26%
         CY Allowable Pension Cost                            135,577     1,187,746

2000     FY Allowable Pension Cost           $1,231,977     $137,271     $1,094,706
                   NORIDIAN MUTUAL INSURANCE COMPANY                     APPENDIX A
                  STATEMENT OF ALLOWABLE PENSION COSTS                     Page 2 of5
                    FOR FISCAL YEARS 1999 THROUGH 2005




                                        Total           Other        Medicare
Date             Descrintion           Comnanv         Sel!ment      Sel!ment

 2001    Contributions                 $10,307,301    $10,307,301            $0
9.00%    Discount for Interest            (825,785)      (825,785)            0
1/1/01   Present Value Contributions     9,481,516      9,481,516             0
         Prepayment Credit               3,809,109      2,275,724     1,533,385
         Present Value of Funding       13,290,625     11,757,240     1,533,385

1/1/01   CAS Funding Target              3,809,109      2,275,724     1,533,385
         Percentage Funded                                100.00%       100.00%
         Funded Pension Cost                            2,275,724     1,533,385
         Allowable Interest                                     0             0
         Allocable Pension Cost                         2,275,724     1,533,385
         Medicare LOB* Percentage                           7.24%        95.58%
         CY Allowable Pension Cost                        164,762     1,465,609

2001     FY Allowable Pension Cost      $1,553,609      $157,466     $1,396,143




 2002    Contributions                  $9,100,000     $9,100,000            $0
9.00%    Discount for Interest            (751,376)      (751,376)            0
1/1/02   Present Value Contributions     8,348,624      8,348,624             0
         Prepayment Credit               4,904,220      2,994,491     1,909,729
         Present Value of Funding       13,252,844     11,343,115     1,909,729

1/1/02   CAS Funding Target              4,904,220      2,994,491     1,909,729
         Percentage Funded                                100.00%       100.00%
         Funded Pension Cost                            2,994,491     1,909,729
         Allowable Interest                                     0             0
         Allocable Pension Cost                         2,994,491     1,909,729
         Medicare LOB* Percentage                           8.96%        98.52%
         CY Allowable Pension Cost                        268,306     1,881,465

2002     FY Allowable Pension Cost      $2,019,921      $242,420     $1,777,501
                   NORIDIAN MUTUAL INSURANCE COMPANY                     APPENDIX A
                  STATEMENT OF ALLOWABLE PENSION COSTS                     Page 3 of5
                    FOR FISCAL YEARS 1999 THROUGH 2005




                                        Total           Other        Medicare
Date            Descrintion            Comnanv         Sef!ment      Sef!ment

 2003    Contributions                 $23,900,000    $23,900,000            $0
8.50%    Discount for Interest          (1,732,111)    (1,732,111)            0
1/1/03   Present Value Contributions    22,167,889     22,167,889             0
         Prepayment Credit               8,641,948      5,627,682     3,014,266
         Present Value of Funding       30,809,837     27,795,571     3,014,266

1/1/03   CAS Funding Target              8,641,948      5,627,682     3,014,266
         Percentage Funded                                100.00%       100.00%
         Funded Pension Cost                            5,627,682     3,014,266
         Allowable Interest                                     0             0
         Allocable Pension Cost                         5,627,682     3,014,266
         Medicare LOB* Percentage                          10.61%        94.54%
         CY Allowable Pension Cost                        597,097     2,849,687

2003     FY Allowable Pension Cost      $3,122,531      $514,899     $2,607,632




2004     Contributions                 $13,000,000    $13,000,000            $0
8.50%    Discount for Interest          (1,018,433)    (1,018,433)            0
1/1/04   Present Value Contributions    11,981,567     11,981,567             0
         Prepayment Credit               9,216,294      6,189,311     3,026,983
         Present Value of Funding       21,197,861     18,170,878     3,026,983

1/1/04   CAS Funding Target              9,216,294      6,189,311     3,026,983
         Percentage Funded                                100.00%       100.00%
         Funded Pension Cost                            6,189,311     3,026,983
         Allowable Interest                                     0             0
         Allocable Pension Cost                         6,189,311     3,026,983
         Medicare LOB* Percentage                          10.73%        94.06%
         CY Allowable Pension Cost                        664,113     2,847,180

2004     FY Allowable Pension Cost      $3,495,166      $647,359     $2,847,807
                             NORIDIAN MUTUAL INSURANCE COMPANY                                  APPENDIX A
                            STATEMENT OF ALLOWABLE PENSION COSTS                                  Page 4 of5
                              FOR FISCAL YEARS 1999 THROUGH 2005




                                                        Total              Other           Medicare
        Date               Descriotion                 Comuanv            See:ment         See:ment

        2005      Contributions                       $18,000,000        $18,000,000               $0
       8.00%      Discount for Interest                (1,331,333)        (1,331,333)               0
       1/1/05     Present Value Contributions          16,668,667         16,668,667                0
                  Prepayment Credit                    11,061,794          7,668,217        3,393,577
                  Present Value of Funding             27,730,461         24,336,884        3,393,577

       1/1/05     CAS Funding Target                    11,061,794         7,668,217        3,393,577
                  Percentage Funded                                          100.00%          100.00%
                  Funded Pension Cost                                      7,668,217        3,393,577
                  Allowable Interest                                               0                0
                  Allocable Pension Cost                                   7,668,217        3,393,577
                  Medicare LOB* Percentage                                    11.36%           93.89%
                  CY Allowable Pension Cost                                  871,109        3,186,229

       2005       FY Allowable Pension Cost             $3,920,827          $819,360       $3,101,467




     * Line of business.

FOOTNOTES

   1/ We developed the 1998 calendar year (CY) allowable pension cost using information from our
      prior audit (report number A-07-00-00 117).

   2/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue
      Service Form 5500 reports. The contributions included deposits made during the plan year and
      accrued contributions deposited after the end of the plan year but within the time allowed for
      filing tax returns. We determined the contributions allocated to the Medicare segment during the
      pension segmentation review (A-07-08-00258). The amounts shown for the Other segment
      represent the difference between the Total Company and the Medicare segment.

   3/ We subtracted the interest that is included in the contributions deposited after January 1 of each
      year to discount the contributions back to their beginning-of-the-year value. For purposes of this
      Appendix, we computed the interest as the difference between the present value of contributions
      (at the valuation interest rate) and actual contribution amounts.

   4/ The present value of contributions is the value ofthe contributions discounted from the date of
      deposit back to January 1. For purposes of this Appendix, we deemed deposits made after the
      end of the plan year to have been made on the final day of the plan year, consistent with the
      method mandated by the Employee Retirement Income Security Act.
                           NORIDIAN MUTUAL INSURANCE COMPANY                                 APPENDIX A
                          STATEMENT OF ALLOWABLE PENSION COSTS                                 Page 5 of5
                            FOR FISCAL YEARS 1999 THROUGH 2005



 5/ A prepayment credit represents the accumulated value of premature funding from the previous
    year(s). A prepayment credit is created when contributions, plus interest, exceed the end-of-year
    Cost Accounting Standards (CAS) funding target. A prepayment credit may be carried forward,
    with interest, to fund future CAS pension costs.

 6/ The present value of funding represents the present value of contributions plus prepayment
    credits. This is the amount of funding that is available to cover the CAS funding target measured
    at January 1 of each year.

 7/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding
    requirement of the Federal Acquisition Regulation (FAR) 31.205-6(j)(2)(i).

 8/ The percentage of costs funded is a measure of the portion of the CAS funding target that was
    funded during the plan year. Because any funding in excess of the CAS funding target is
    considered premature funding in accordance with CAS 412.50(c)(1) (as amended), the funded
    ratio may not exceed 100 percent. We computed the percentage funded as the present value of
    funding divided by the CAS funding target. For purposes of illustration, the percentage of
    funding has been rounded to four decimals.

 9/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent
    funded.

10/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in
    the same proportion as the interest on contributions bears to the present value of contributions.
    However, we limited the interest in accordance with FAR 31.205-6(j)(2)(iii), which does not
    permit the allowable interest to exceed the interest that would accrue if the CAS funding target,
    less the prepayment credit, were funded in four equal installments deposited within 30 days of
    the end of the quarter.

ill The allocable CAS pension cost is the amount of pension cost that may be allocated for contract
    cost purposes.

12/ We calculated allowable pension costs of the Medicare and Other Segments based on the
    Medicare line of business (LOB) percentage of each segment. We determined the LOB
    percentages based upon documents provided by Noridian.

13/ We computed the CY allowable Medicare pension cost as the allocable pension cost multiplied
    by the Medicare LOB percentage.

14/ We converted the CY (January 1 through December 31) allowable pension costs to a fiscal year
    (FY) basis (October 1 through September 30). We calculated the FY pension costs as 1/4 of the
    prior year's costs plus 3/4 of the current year's costs. Costs charged to the Medicare contract
    should consist of the Medicare segment's direct pension costs plus pension costs attributable to
    indirect Medicare operations.
                                                                                    APPENDIXB
                                                                                      Page 1 of2




                                   "~

                                  IVDRIDIAAf
                                  Mutq~lln.sfJr8nCeCbmpa.ny-


October 17,2008



MLPatfick J. Cogley
Regional Inspector General for Audit Services
DepilttmentofBealth & Human ServiCes
601 Eastlih Street
Room 284A
Kansas City, MO 64.106

RE: Report Number A-07-0.8-00258 and A-07-08-00259

Dear Mr; Cogley:

We have reviewed YDllt draft reports entitled "Review of Medjcare Contr4ctor's Pension
Segmentation Requitementsat Noridillh MiltlJal Inslltance Company for the Period
Janual'y 1, 1998, to JanlJary 1, 2006" anc:! "Reviewof Pension Costs Claimed for
MedicareReimblu'sementbyNoridianMl,ltlJajlnsll1:al1ce Company fot Fiscal Years 1999
Through 2005" and offer the fpnOW~ng cp.!PJ11ents:

Recommendations " "Review;ofPension Segmentation ReqlJirements"

           •   Increase Medicare segment assels by $158,26.1 as of January], 2006
                   o	 We concur with this recommendation.

          •	 IrnplementcOritrols to erisore thattheMedicare segment's assets are
             updated in acmrdance With the Medicate Contracts,
                 o	 We concur with this recommendatidn and will ensure that
                    individuals arepmperly identified to the Medicare segment and
                    that the Mediearesegment'sassets are updated.

Recommendations - "Review of Pension Costs Claimed"

           •	 Revise the Final AdministratiVe Cost Propos/us to claim allowable CAS
              pensioncostsof$38,645 for pYs 1999 through 2005 and claim future
              pensioncostsinaccordance, with Federal requirements llnd the Medicare
              contracts,
                 o	 We.conclJI'1'itI1 this!'p?9tplUcndation and will revise the Firial
                     Administrati yeCpstpl'0posals.




                       4510 13th Avenue South. Fargo, North Dakota '58121                8-07
                                             APPENDIXB
                                               Page 2 of2




                                          Page 2




David Breuer
Senidr'Vice'PresidertIOIFirtartce aMeFQ
